<html>
<title> - BENGHAZI: THE ATTACKS AND THE LESSONS LEARNED</title>
<body><pre>[Senate Hearing 112-739]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-739
 
                       BENGHAZI: THE ATTACKS AND 

                          THE LESSONS LEARNED

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 20, 2012

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE
79-801                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
               William C. Danvers, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                           (ii)                                  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Burns, Hon. William J., Deputy Secretary of State, U.S. 
  Department of State, Washington, DC............................     8
    Prepared statement...........................................    10
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     6
Nides, Hon. Thomas R., Deputy Secretary of State for Management 
  and Resources, U.S. Department of State, Washington, DC........    11
    Prepared statement...........................................    13

              Additional Material Submitted for the Record

Letter from Secretary of State Hillary Rodham Clinton to Senators 
  John F. Kerry and Richard G. Lugar.............................    37

                                 (iii)




                       BENGHAZI: THE ATTACKS AND 

                          THE LESSONS LEARNED

                              ----------                              


                      THURSDAY, DECEMBER 20, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 8:03 a.m., in 
room SH-216, Hart Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Boxer, Menendez, Cardin, Casey, 
Shaheen, Lugar, Corker, Risch, Rubio, Inhofe, Isakson, and 
Barrasso.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order. My apologies 
to everybody for the switch in time, but as everybody knows, 
with the loss of our colleague, Senator Inouye, the course of 
events was uncertain yesterday. And it was decided that his 
remains will be brought here at about 10 a.m. And everybody 
felt that it would be inappropriate for us to be simply having 
a hearing and to prevent Senators from being able to attend. 
And all of us would like to attend that. So we are going to try 
to compact this into the period of time we have between now and 
about quarter of so that Senators can get over there to take 
part in that ceremony. In addition, obviously with the switch 
in time, some colleagues and others have not yet gotten here.
    I do want to share some thoughts at the appropriate time 
about Senator Lugar and Senator Webb and Senator DeMint, who 
will be leaving the committee. But I think I will wait until 
some more of our colleagues are here to be able to share those 
thoughts.
    I want to thank everybody for joining us this morning.
    As everyone is aware, Secretary Clinton is recovering from 
a serious virus and concussion. And given her condition, it was 
simply not possible for her to appear here today. We all wish 
her a speedy recovery. And in her place we have both deputies 
from the State Department, and I want to thank them for coming 
in on short notice.
    Let me emphasize this, please, to everybody. All of you who 
know Hillary know that she would rather be here today. I know 
how deeply she feels the importance of the discussion that 
we're having today, and I assure you it is not her choice that 
she is not here today. And she looks forward to appearing 
before the committee in January, and I want to make that clear.
    I also want to emphasize that every member of this 
committee felt the loss of Ambassador Chris Stevens and his 
team in a very personal way. We knew Chris Stevens well before 
he came before us for confirmation. He was a Pearson fellow for 
Senator Lugar and the committee. We knew the depth of his 
character, of his intelligence, and his dedication. His death 
was a horrible blow in personal terms to the committee, as well 
as to the country and to his family.
    It evoked an outpouring of emotion on our committee from 
the condolence book in our office in the Capitol to the private 
gestures of members of this committee who shared their grief in 
private ways--at Senate 116, signing the condolence books, 
touching the picture, saying a prayer.
    Equally tragic was the loss of three courageous men whom I 
have personally never met, but whose families I had a chance to 
greet and hug when the military brought their loved ones' 
remains back one last time to Andrews Air Force Base. That 
heartbreaking and solemn ceremony brought home the impact of 
our Nation's loss.
    Glen Doherty was a former Navy SEAL. He was also from my 
home State, and I talked a couple of times with his family. And 
Tyrone Woods was a former SEAL, Sean Smith, an Air Force 
veteran; all people for whom service to country was their life. 
So today we again say thank you to all of them, to the fallen 
and the families. They all gave to our Nation, and we are 
grateful beyond words for their service and their sacrifice.
    From the very beginning of the Benghazi events, every 
member of this committee has shared with the President and 
Secretary Clinton our determination to get all the facts about 
what happened and why in Benghazi. We submitted many questions 
to the State Department to be incorporated into this 
investigation, and we are very pleased that they have been.
    We have had a number of classified briefings for our 
members, and yesterday the committee heard from Ambassador Tom 
Pickering and ADM Mike Mullen. We heard them deliver a very 
frank and comprehensive set of findings of the Accountability 
Review Board.
    Ambassador Pickering and Admiral Mullen are two of 
America's most distinguished and capable public servants. 
Ambassador Pickering has served as an Under Secretary of the 
State Department and an Ambassador to seven countries, among 
them India, Russia, Israel, and other important nations. 
Admiral Mullen, as we know, was the Chairman of the Joint 
Chiefs of Staff.
    I think that their backgrounds, their service to our 
country, showed up starkly in the quality of the Board's 
report. And I want to thank them for their extraordinary 
service to our country, and I want to thank Secretary Clinton 
who appointed them--who selected them.
    The report pulls no punches. It tackles head on many of the 
questions that we have been asking. The report makes 29 
recommendations in total, 5 of which are classified. Secretary 
Clinton has embraced every single one of them. In fact, she has 
gone above and beyond the Board's recommendations by taking 
immediate steps to strengthen security at high-threat posts, 
and requests from Congress the authority to reprogram funds to 
increase diplomatic security spending by $1.3 billion. In 
Washington where too often we see the recommendations of blue 
ribbon panels ignored, delayed, or deferred, as they were for a 
long time on even the 9/11 Commission, I think the Secretary's 
swift action underscores how determined she is to apply the 
lessons of Benghazi.
    Clearly mistakes were made, and we learned of those 
yesterday in very stark terms about the mistakes leading up to 
the attacks. The report makes that very clear, and one of the 
most candid and important observations was the failure by 
certain leaders to see the forest through the trees. There were 
clear warning signs that the security situation in Libya had 
deteriorated, and going forward it is important, and I think it 
is important for all of us to think in terms of going forward, 
that we need to do a better job of ensuring a free and open 
dialogue among ambassadors, their embassy security personnel, 
and officials in Washington where decisions on security 
staffing levels and funding are made.
    Now, as we draw the lessons, I want to be crystal clear 
about something else. Congress also bears some responsibility 
here. Congress has the power of the purse. We use it for any 
number of things, but it is our responsibility. And for years 
we have asked our State Department to operate with increasingly 
lesser resources to conduct essential missions. And because of 
the gridlock and excesses in the Senate and Congress itself, we 
have not even been able to pursue the regular order of 
authorizing legislation. That must change. And in the next 
session of the Congress, I hope it will.
    As in any government entity, we know that when a budget is 
cut and money is fungible, you stretch every dollar. So for 
some time now, overseas resources have been withheld or cut, 
and important foreign policy objectives have, in some cases, 
been starved. Consider that last year we spent approximately 
$650 billion on our military. By contrast, the international 
affairs budget is less than one-tenth of the Pentagon's. 
Secretary Gates has spoken about this and strongly urged the 
Congress to redress that imbalance, but we have not yet. 
Admiral Mullen once pointed out, ``The more significant the 
cuts, the longer military operations will take, and the more 
and more lives are at risk.''
    So we need to make certain that we are not penny-wise and 
pound-foolish when it comes to supporting America's vital 
overseas interests. Adequately funding America's foreign policy 
objectives is not spending. It is investing in our long-term 
security, and more often than not it saves far more expensive 
expenditures in dollars and lives for the conflicts that we 
fail to see or avoid.
    We need to invest in America's long-term interests in order 
to do the job of diplomacy in a dangerous world. And this 
report makes that crystal clear.
    Since 1985, I have had the privilege, as most of you, of 
making official journeys to one trouble spot or another.
    I have met a lot of our men and women in the Foreign 
Service, as all of you have, and we have sat and talked about 
the work that they do and the lives that they lead. They spend 
years learning the languages of a country so that they can be 
on the front lines of direct diplomacy--foreign policy 
outdoors, as my dad used to call it.
    When my father served in Berlin after World War II, I 
remember my mother sometimes looking at the clock nervously in 
the evening when he was late for coming home to dinner in a 
city where troops guarded the line between East and West, and 
the rubble of war was still very fresh. But my father knew that 
what he was doing was worth whatever the risk might have been, 
and so do the Foreign Service personnel that we send all over 
the world today. They want to be accessible to people on the 
ground. They need to be accessible to people on the ground when 
they are representing 
our country. They want those people to see and touch the face 
of America.
    It is no understatement that our diplomats are on the front 
lines of the world's most dangerous places. They leave their 
families behind. They miss holidays at home. They risk their 
safety to make the world safer and to protect the interests of 
our country. They do not join the Foreign Service to get rich, 
and sadly many of them are only--their names are only learned 
when a tragedy like Benghazi takes place. Our diplomats do not 
wear a uniform, but they swear the same oath as the men and 
women of our Armed Forces, and their sacrifice is no less 
important.
    So take note, everybody. As we learned yesterday, the 
Board's report calls for an investment of $2.3 billion a year 
over 10 years in order to meet the fundamental charge of 
protecting our personnel overseas. We owe it to them, to our 
responsibility, and to the memory of Chris Stevens and those 
others who have lost their lives to make good on that request. 
And I make that clear today.
    Some may ask why we are in Benghazi. The reasons are really 
central to everything that we want our Foreign Service to do. 
They are central to advancing America's values and furthering 
our security. We are in Benghazi because that is where the 
revolution in Libya began. That is where the vanguard of the 
transition is today. That is where some principle actors in the 
future of Libya come from.
    We were there to learn and help Libyans deliver on the 
promise of their revolution. And many of our most important 
contacts and the future leaders of Libya reside in the volatile 
east. We have to be on the ground outside the wire reaching out 
to those people. That is the enterprise of U.S. foreign policy 
today to help men, women, and children around the world share 
in the vision of democracy and the values of freedom, and 
through it to bring stability to whole regions of the world and 
reduce the threats to our Nation.
    I believe we all ought to be very proud of what we have 
achieved in Libya. By taking military action when we did, we 
liberated a country that had been under the yoke of a dictator 
for more than 40 years. We gave the Libyan people a fighting 
chance for their future, and I am convinced that we prevented 
the slaughter of thousands of innocent lives.
    The tragic events of the last 9/11--2012--illustrate the 
magnitude of the challenge ahead, that the thousands of 
everyday Libyans who marched in outrage against the militias 
with signs declaring their love for Chris Stevens and for the 
United States, their gratitude for our country, provide, I 
think, a measure of hope. That demonstration of affection for 
America and for our envoy who gave his life, for those people 
summed up exactly why we must not look inward and walk away.
    Finally, let me just say that what happened in Benghazi 
really cannot be seen in isolation. There is a truth about 
diplomacy and Foreign Service that needs to be processed 
through the committee and the Congress and the country as we 
examine the events of Benghazi. We have an expeditionary 
diplomatic corps, and they do face very real risks every day; 
day in and day out.
    Bad things have happened before, and bad things will happen 
again; unfortunately in the future. There will always be a 
tension between the diplomatic imperative to get outside the 
wire and the security standards that require our diplomats to 
work behind high walls, concertina wire, and full body 
searches. We do not want to concertina wire America off from 
the world. Our challenge is to strike a balance between the 
necessity of the mission, available resources, and tolerance 
for risk.
    We have talked about this on this committee. We have had 
hearings specifically about the design of our embassies, the 
danger of becoming a fortress America. And we need to be safe, 
but we also need to send the right message to the people that 
we are trying to reach.
    I distinctly remember feeling and seeing the difficulty of 
this in Vietnam where villagers would examine us suspiciously 
and give us a stare, an unmistakable stare, that raises many 
more questions than we are ever able to answer.
    In Iraq and Afghanistan, I have revisited that stare. As 
you pass through a village with masses of guns, and big armored 
personnel carriers, and Humvees. And the look of confusion and 
alienation from average Iraqis or Afghans who just do not 
understand why we are rumbling through their streets that way 
is unmistakable. I will tell you, every diplomat worth their 
salt feels this tension and worries about the misimpression our 
security footprint can create in the minds of the very people 
that we are trying to reach, an impression that is starkly 
revealed on their faces when you are surrounded by gun-toting 
security personnel.
    So balancing our values and our interests with the risks 
inherent in 21st century diplomacy is sort of fundamental to 
the questions raised by the events in Benghazi, by what we are 
here to talk about today. To paraphrase Ambassador Ryan 
Crocker, we need to be in the business of risk management, not 
risk avoidance.
    So there are costs, but that is no reason to retrench from 
the world, and it is, I think, a reason to honor the memory of 
Ambassador Stevens and the others who were deeply committed to 
a strong American role in the world. That is why he was out 
there.
    So in the end, colleagues, we are all Americans first.
    We cannot lose sight of that fact, particularly in the face 
of this tragedy. And we are very pleased that Secretary Burns, 
Secretary Nides, have come here today. Secretary Burns recently 
established the Christopher Stevens Youth Network to honor 
Chris' memory by building bridges of understanding and 
compassion between American youth and their Middle Eastern 
peers. And we look forward to continuing that work with them.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you, Mr. Chairman. I join you in 
welcoming back Secretary Burns and Tom Nides, both who are good 
friends of the committee. And we extend our very best wishes to 
Secretary Clinton as she recovers from her mishap.
    The Secretary's pace of activities has been, during the 
last several years, extraordinary by any measure, and we are 
grateful for her devoted service to our country and for the 
courtesy she has shown to our committee throughout her tenure.
    Our hearing today gives us a chance to review events at our 
consulate in Benghazi that resulted in the deaths of Ambassador 
Christopher Stevens, Foreign Service officer Sean Smith, two 
U.S. Embassy security personnel, Glen Doherty and Tyrone Woods. 
Many questions have been raised about this tragedy, including 
whether we had sufficient intelligence ahead of time and 
whether there was a breakdown in security protocols.
    Our interest in these questions is especially personal 
because of our respect and affection for Ambassador Stevens, 
who became a good friend of this committee while he was 
detailed to my staff during 2006 and 2007. His advice to me on 
the complexities of events and relationships in the region was 
invaluable. After he went back to State, he continued to brief 
staff from time to time, and he returned to meet with me after 
his remarkable tour as the United States representative to the 
rebels in Benghazi. All of us have read accounts of Chris 
Stevens' extraordinary service.
    It should be clear to everyone he was personally 
instrumental in advancing United States interests in Libya.
    Chris was providing the kind of energetic leadership we 
need for our embassy teams. He went beyond the embassy walls to 
meet and converse with soldiers, militiamen, shopkeepers, and 
villagers, as well as with ministers, and generals, and 
bureaucrats. Like U.S. Embassy personnel around the world, 
Chris and his team recognized that effective diplomacy in this 
era carries substantial risk.
    Nevertheless, it is up to the President, the State 
Department, and the Congress to ensure that our diplomats have 
enough support and security to do their jobs as safely as 
possible. And just as we give our men and women in uniform the 
weapons they need to carry out their mission, we must make sure 
our diplomats have all the tools that they need, which include 
a safe place to work.
    Embassies are both outposts of the U.S. government and 
symbols of our country, and as such, they have been prime 
targets for terrorists. Almost every day the United States 
receives threats against its embassies, consulates, and other 
diplomatic facilities overseas.
    When I became chairman of this committee for the second 
time in 2003, one of the first things I did was to initiate an 
inquiry into embassy security. We conducted a hearing and 
numerous briefings on the topic, and my staff interviewed 
dozens of security and diplomatic personnel at embassies around 
the world.
    I also commissioned a GAO report that was completed in 
2006, and that report noted the significant progress that had 
been made by the State Department in building secure embassies 
in a cost-efficient manner. It recommended that the State 
Department 
develop an integrated and a comprehensive facilities plan to 
more closely track costs and results.
    Working with former Secretary of State Powell, we initially 
were successful in getting extra money to accelerate the 
embassy construction program. But in my view, funds for this 
purpose have never caught up to the threats faced by our 
diplomats in the post-9/11 world. There have been suggestions 
that cross-considerations contributed to the inadequate 
protection in Benghazi.
    Last week as preparations for this hearing were getting 
under way, the State Department announced it would seek $1.4 
billion in the 2013 budget for an increased security proposal 
based on a recent review of the worldwide security posture. I 
am pleased to see that the proposal notes, ``We must ensure we 
strike the right balance between security and engagement.'' I 
will be interested to hear from the panel how the Obama 
administration would apply these funds and how they would 
affect the pace of new embassy construction and staffing levels 
in the diplomatic security service.
    In the end, however, our embassies are unlikely to be both 
effective and safe if Congress fails to devote adequate funding 
to the 150 Account, which pays for State Department operations. 
We should not forget lessons learned in the 1990s when the 
sharp budget cuts at the State Department at the same time we 
were establishing many new embassies in the former Soviet Union 
and the Balkans. This funding squeeze resulted in clear 
deficiencies in our overall diplomatic capabilities that took 
years to correct.
    The State Department budget remains a popular target for 
cuts. In recent years, we have avoided the type of funding 
decline that the State Department experienced in the 1990s. But 
it is still common for Congress to vote on indiscriminate 
proposals that show little understanding of the contributions 
of the State Department to the safety and prosperity of our 
country.
    Diplomacy is not a luxury. It is essential to American 
national security, especially in an era of terrorism. We should 
fund the State Department as the national security agency that 
it is.
    I look forward to a discussion with our witnesses, and I 
thank the Chair.
    The Chairman. Senator Lugar, thank you very much. If I 
could ask the committee, I am going to just take a moment.
    I will not ask questions. I am going to yield my time so 
that others have more time because I took a little longer with 
the opening.
    But I just want to say a special thank you--this will be 
Senator Lugar's last hearing. It is the committee's last 
hearing in this session. And I think whether you have served as 
chairman or as ranking member, Dick, you have been just an 
extraordinary influence on all of us. I know the Nunn-Lugar 
initiative is synonymous with bipartisanship in serious foreign 
policy, and it stands as an amazing legacy.
    But I will always remember the work we did on the 
Philippines, your efforts on the floor. You have always had 
this amazing humility and sense of purpose in finding the 
common ground and reaching out to people on both sides of the 
aisle.
    Every member of the committee has joined in presenting you 
with a resolution, and I just want to read just the 
introduction. ``Whereas throughout his 36 years in the United 
States Senate, Richard Lugar has served Indiana and the United 
States with grace, distinction, and tenacity, and will have 
many more contributions still to a Nation he reveres and that 
reveres him.'' And we want to present this to you, everybody on 
the committee, my friend.
    [Applause.]
    Senator Lugar. Thank you. Thank you. Thank you very much. 
Mr. Chairman, I thank you very much. I am very grateful to have 
had this opportunity to serve with each one of you. Thank you 
for this very special tribute.
    The Chairman. Thank you, sir. Well, it is small compared to 
your service, but we honor you.
    And then finally, we are also going to be losing Jim Webb 
and Jim DeMint. Jim, as we all know--Jim Webb came here and did 
something very few freshmen can do by getting a major piece of 
legislation passed, a new GI bill. And on the committee, he has 
been really critical to our thinking about the Far East. He was 
the first American to visit Burma in 10 years, and I am proud 
to say I think I may have been the one who was there before 
that. But he changed the policy. He knew we had to lift the 
sanctions and move it. And his contribution to our thinking 
about the Trans-Pacific Partnership, the continued efforts on 
Vietnam MIAs has been a superb contribution. He is a great 
thinker, and we appreciate his service.
    And Jim DeMint--Jim DeMint and I have obviously disagreed 
on a number of the treaties, a number of the initiatives in 
front of the committee. But one of the great things about Jim 
DeMint is you know where he stands. He knows what he believes; 
we do. He has been a terrific advocate for his point of view, 
and we are confident that in the new hat that he is going to 
wear, we are going to continue to debate and continue to feel 
his presence. And we thank him very much for his service on the 
committee also. So we thank both of them.
    Gentleman, thanks for putting up with our early efforts 
here on the committee. We appreciate your patience. And thank 
you very, very much for being here today.
    Who is first? Secretary Burns, you are you going to lead 
off? Thank you very much.

STATEMENT OF HON. WILLIAM J. BURNS, DEPUTY SECRETARY OF STATE, 
            U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Burns. Thank you. Mr. Chairman, Senator Lugar, members 
of the committee, thank you for this opportunity.
    Secretary Clinton asked me to express how much she regrets 
not being able to be here today. And I would like to join you, 
Mr. Chairman, on behalf of the Secretary and the men and women 
of the Department of State in expressing our deep respect and 
admiration for the many years of service of Senator Lugar to 
our Nation.
    Since the terrorist attacks on our compounds in Benghazi, 
State Department officials and senior members from other 
agencies have testified in four congressional hearings, 
provided more than 20 briefings for members and staff, and 
submitted thousands of pages of documents, including the now 
full classified report of the Accountability Review Board.
    Secretary Clinton has also sent a letter covering a wide 
range of issues for the record. So today I would like to 
highlight just a few key points.
    The attacks in Benghazi took the lives of four courageous 
Americans. Ambassador Stevens was a friend and a beloved member 
of the State Department community for 20 years. He was a 
diplomat's diplomat, and he embodied the very best of America.
    Even as we grieved for our fallen friends and colleagues, 
we took action on three fronts. First, we took immediate steps 
to further protect our people and our posts.
    We stayed in constant contact with embassies and consulates 
around the world facing large protests, dispatched emergency 
security teams, received reporting from the intelligence 
community, and took additional precautions where needed. You 
will hear more about all this from my partner, Tom Nides.
    Second, we intensified a diplomatic campaign aimed at 
combating the threat of terrorism across North Africa. We 
continue to work to bring to justice the terrorists responsible 
for the attacks in Benghazi, and we are working with our 
partners to close safe havens, cut off terrorists' finances, 
counter extremist ideology, and slow the flow of new recruits.
    And, third, Secretary Clinton ordered an investigation to 
determine exactly what happened in Benghazi.
    I want to convey our appreciation to the Accountability 
Review Board's chairman and vice chairman, Ambassador Tom 
Pickering and former Chairman of the Joint Chiefs of Staff, ADM 
Mike Mullen, and also Hugh Turner, Richard Shinnick, and 
Catherine Bertini.
    The Board's report takes a clear-eyed look at serious 
systemic problems; problems which are unacceptable, problems 
for which, as Secretary Clinton has said, we take 
responsibility, and problems which we have already begun to 
fix.
    Before Tom walks you through what we are doing to implement 
fully all of the Board's recommendations, I would like to add a 
few words based on my own experiences as a career diplomat in 
the field.
    I have been a very proud member of the Foreign Service for 
more than 30 years, and I have had the honor of serving as a 
chief of mission overseas. I know that diplomacy by its very 
nature must sometimes be practiced in dangerous places. As 
Secretary Clinton has said, our diplomats cannot work in 
bunkers and do their jobs. When America is absent, there are 
consequences. Our interests suffer, and our security at home is 
threatened.
    Chris Stevens understood that as well as anyone. Chris also 
knew that every chief of mission has the responsibility to 
ensure the best possible security and support for our people. 
As senior officials here in Washington, we share that profound 
responsibility. We have to constantly improve, reduce the risks 
our people face, and make sure they have all the resources they 
need.
    That includes the men and women of the State Department's 
Diplomatic Security Service. I have been deeply honored to 
serve with many of these brave men and women. They are 
professionals and patriots who serve in many places where there 
are no Marines on post and little or no U.S. military presence 
in-country. Like Secretary Clinton, I trust them with my life.
    It is important to recognize that our colleagues in the 
Bureaus of Diplomatic Security, and Near East Affairs and 
across the Department at home and abroad get it right countless 
times a day, for years on end, in some of the toughest 
circumstances imaginable. We cannot lose sight of that. But we 
have learned some very hard and painful lessons in Benghazi. We 
are already acting on them. We have to do better. We owe it to 
our colleagues who lost their lives in Benghazi. We owe it to 
the security professionals who acted with such extraordinary 
heroism that awful night to try to protect them. And we owe it 
to thousands of our colleagues serving America with great 
dedication every day in diplomatic posts around the world.
    We will never prevent every act of terrorism or achieve 
perfect security, but we will never stop working to get better 
and safer. As Secretary Clinton has said, the United States 
will keep leading and keep engaging around the world, including 
in those hard places where America's interests and values are 
at stake.
    Thank you very much.
    [The prepared statement of Mr. Burns follows:]

    Prepared Statement of Deputy Secretary of State William J. Burns

    Mr. Chairman, Ranking Member, members of the committee, thank you 
for this opportunity. Secretary Clinton asked me to express how much 
she regrets not being able to be here today.
    Since the terrorist attacks on our compounds in Benghazi, State 
Department officials and senior members from other agencies have 
testified in four congressional hearings, provided more than 20 
briefings for members and staff, and submitted thousands of pages of 
documents--including now the full classified report of the 
Accountability Review Board. Secretary Clinton has also sent a letter 
covering a wide range of issues for the record. So today, I would like 
to highlight just a few key points.
    The attacks in Benghazi took the lives of four courageous 
Americans. Ambassador Stevens was a friend and a beloved member of the 
State Department community for 20 years. He was a diplomat's diplomat, 
and he embodied the best of America.
    Even as we grieved for our fallen friends and colleagues, we took 
action on three fronts:
    First, we took immediate steps to further protect our people and 
posts. We stayed in constant contact with embassies and consulates 
around the world facing large protests, dispatched emergency security 
teams, received reporting from the intelligence community, and took 
additional precautions where needed. You'll hear more about all this 
from my partner, Tom Nides.
    Second, we intensified a diplomatic campaign aimed at combating the 
threat of terrorism across North Africa. We continue to work to bring 
to justice the terrorists responsible for the attacks in Benghazi. And 
we are working with our partners to close safe havens, cut off 
terrorist finances, counter extremist ideology, and slow the flow of 
new recruits.
    And third, Secretary Clinton ordered an investigation to determine 
exactly what happened in Benghazi. I want to convey our appreciation to 
the Accountability Review Board's chairman and vice chairman, 
Ambassador Thomas Pickering and former Chairman of the Joint Chiefs of 
Staff, Admiral Mike Mullen. And also Hugh Turner, Richard Shinnick, and 
Catherine Bertini.
    The Board's report takes a clear-eyed look at serious, systemic 
problems. Problems which are unacceptable. Problems for which--as 
Secretary Clinton has said--we take responsibility. And problems which 
we have already begun to fix.
    Before Tom walks you through what we're doing to implement fully 
all of the Board's recommendations, I'd like to add a few words based 
on my own experiences as a career diplomat in the field. I have been a 
very proud member of the Foreign Service for more than 30 years, and 
have had the honor of serving as a Chief of Mission overseas.
    I know that diplomacy, by its very nature, must sometimes be 
practiced in dangerous places. As Secretary Clinton has said, our 
diplomats cannot work in bunkers and do their jobs. When America is 
absent, there are consequences. Our interests suffer and our security 
at home is threatened.
    Chris Stevens understood that as well as anyone. Chris also knew 
that every Chief of Mission has the responsibility to ensure the best 
possible security and support for our people. As senior officials here 
in Washington, we share that profound responsibility. We have to 
constantly improve, reduce the risks our people face, and make sure 
they have the resources they need.
    That includes the men and women of the State Department's 
Diplomatic Security Service. I have been deeply honored to serve with 
many of these brave men and women. They are professionals and patriots 
who serve in many places where there are no Marines on post and little 
or no U.S. military presence in-country. Like Secretary Clinton, I 
trust them with my life.
    It's important to recognize that our colleagues in the Bureaus of 
Diplomatic Security and Near East Affairs and across the Department, at 
home and abroad, get it right countless times a day, for years on end, 
in some of the toughest circumstances imaginable. We cannot lose sight 
of that.
    But we learned some very hard and painful lessons in Benghazi. We 
are already acting on them. We have to do better.
    We owe it to our colleagues who lost their lives in Benghazi. We 
owe it to the security professionals who acted with such extraordinary 
heroism that awful night to try to protect them. And we owe it to 
thousands of our colleagues serving America with great dedication every 
day in diplomatic posts around the world.
    We will never prevent every act of terrorism or achieve perfect 
security--but we will never stop working to get better and safer. As 
Secretary Clinton has said, the United States will keep leading and 
keep engaging around the world, including in those hard places where 
America's interests and values are at stake.

    The Chairman. Secretary Nides.

 STATEMENT OF HON. THOMAS R. NIDES, DEPUTY SECRETARY OF STATE 
    FOR MANAGEMENT AND RESOURCES, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Nides. Mr. Chairman, Senator Lugar, members of the 
committee, I also want to thank you for this opportunity.
    I want to reiterate what Bill has said. All of us have a 
responsibility to provide the men and women who serve this 
country with the best possible security and support. From 
senior departmental leadership studying the priorities, to the 
supervisors evaluating security needs, to the Congress 
appropriating sufficient funds, we all share this 
responsibility. Secretary Clinton has said that as Secretary of 
State, this is her greatest responsibility and her highest 
priority.
    Today I will focus on the steps we have been taking at 
Secretary Clinton's direction and that we will continue to 
take.
    As Bill said, the Board reports take a clear-eyed look at 
serious, systemic problems for which we take responsibility and 
that we have already begun to fix. We are grateful for the 
recommendations from Ambassador Pickering and his team. We 
accept every one of them, all 29 recommendations. Secretary 
Clinton has charged my office with leading a task force that 
will ensure that all 29 are implemented quickly and completely, 
and also to pursue steps above and beyond the Board's report.
    The Under Secretary of Political Affairs, the Under 
Secretary for Management, the Director General of the Foreign 
Service, and the Deputy Legal advisor will work with me to 
drive this forward.
    The task force has already met to translate the 
recommendations into 60 specific action items. We have assigned 
every single one to the responsible bureau for immediate 
implementation, and several will be completed by the end of 
this calendar year. Implementation of each and every 
recommendation will be under way by the time the next Secretary 
of State takes office. There will be no higher priority for the 
Department in the coming weeks and months.
    And should we require more resources to execute these 
recommendations, we will work closely with the Congress to 
ensure that they are met.
    As I said, Secretary Clinton wants us to implement the 
ARB's findings and do more. Let me offer some very clear 
specifics.
    For more than 200 years, the United States, like every 
other country around the world, has relied on host nations to 
provide security for our embassies and consulates. But in 
today's evolving threat environment, we have to take a new and 
harder look at the capabilities and the commitments of our 
hosts. We have to reexamine how we operate in places facing 
emerging threats, where nationalist security forces are 
fragmented or may be weak.
    So at Secretary Clinton's direction, we have moved quickly 
to conduct a worldwide review of our overall security posture 
with particular scrutiny on the number of high-threat posts. 
With the Department of Defense, we deployed five interagency 
security assessment teams made up of diplomatic and military 
security experts to 19 posts in 13 countries, an unprecedented 
cooperation between our Departments at a critical time. These 
teams have provided us a roadmap for addressing emerging 
security challenges.
    We are also partnering with the Pentagon to send 35 
additional Marine detachments. That is about 225 Marines to 
medium- and high-threat posts where they will serve as visible 
deterrence to hostile actors. This is on top of the approximate 
150 detachments we have already deployed.
    We are aligning our resources to our 2013 budget request to 
address physical vulnerabilities, and we have reinforced 
structures wherever needed, and to reduce risk from fire. And 
let me add, we may need your help in ensuring that we have the 
authority to streamline the usual processes to produce faster 
results.
    We are seeking to hire more than 150 additional diplomatic 
security personnel, an increase of about 5 percent, and to 
provide them with the equipment and training they need. As the 
ARB recommended, we will target them squarely at securing our 
high-threat posts.
    I want to second Bill's praise for these brave security 
professionals. I have served this Department for only 2 years, 
having come from the private sector. However, I have traveled 
to places like Iraq and Afghanistan and Pakistan, and I have 
seen firsthand how these dedicated men and women risk their 
lives every day. We owe them a debt of gratitude as they go to 
work every day to protect us in more than 270 posts around the 
world.
    And as we make these improvements in the field, we are also 
making changes here in Washington. We have named the first-ever 
Deputy Assistant Secretary of State for High Threat Posts 
within the Bureau of Diplomatic Security. We are updating our 
deployment procedures to increase the number of experienced and 
well-trained staff serving in those posts. And we are working 
to ensure that the State Department makes decisions about where 
our people operate in a way that reflects our shared 
responsibility for security.
    Our regional Assistant Secretaries were directly involved 
in our interagency security assessment process, and will assume 
greater accountability for securing our people at our posts.
    We will provide the Congress with a detailed report on step 
we are taking to improve security and implement the Board's 
recommendations. We will look to you for support and guidance 
as we do this. Obviously part of this is about resources. We 
must equip our people with what they need to deliver results 
safely, and we will work with you as needs arise. But Congress 
has a bigger role than that. You have visited our posts. You 
know our diplomats on the ground and the challenges they face. 
You know our vital national security interests are at stake, 
and you know that we are all in this together.
    We look forward to working with you. Thank you, Mr. 
Chairman, for your support and counsel and for this opportunity 
to discuss these important matters. We would both be happy to 
take your questions.
    [The prepared statement of Mr. Nides follows:]

    Prepared Statement of Deputy Secretary of State Thomas R. Nides

    Mr. Chairman, Ranking Member, members of the committee, I also 
thank you for this opportunity.
    I want to reiterate what Bill said: All of us have a responsibility 
to provide the men and women who serve this country with the best 
possible security and support. From senior Department leadership 
setting priorities . . . to supervisors evaluating security needs . . . 
to Congress appropriating sufficient funds--we share this 
responsibility. Secretary Clinton has said that, as Secretary of State, 
this is her greatest responsibility and highest priority.
    Today I will focus on the steps we have been taking at Secretary 
Clinton's direction, and that we will continue to take.
    As Bill said, the Board's report takes a clear-eyed look at 
serious, systemic problems for which we take responsibility and that we 
have already begun to fix.
    We are grateful for the recommendations from Ambassador Pickering 
and his team. We accept every one of them--all 29 recommendations. 
Secretary Clinton has charged my office with leading a task force that 
will ensure that all 29 are implemented quickly and completely--and to 
pursue steps above and beyond the Board's report. The Under Secretary 
for Political Affairs, Under Secretary for Management, director general 
of the Foreign Service, and deputy legal advisor, will work with me to 
drive this forward.
    The task force has already met to translate the recommendations 
into about 60 specific action items. We have assigned every single one 
to a responsible bureau for immediate implementation--and several will 
be completed by the end of the calendar year.
    Implementation of each and every recommendation will be well 
underway by the time the next Secretary of State takes office. There 
will be no higher priority for the Department in the coming weeks and 
months. And, should we require more resources to execute these 
recommendations, we will work closely with Congress to ensure these 
needs are met.
    As I said, Secretary Clinton wants us to implement the ARB's 
findings--and to do more. Let me offer some specifics.
    For more than 200 years, the United States--like every other 
country around the world--has relied on host nations to provide 
security for our embassies and consulates. But in today's evolving 
threat environment, we have to take a new and harder look at the 
capabilities and commitment of our hosts. We have to reexamine how we 
operate in places facing emerging threats, where national security 
forces are fragmented and political will may be weak.
    So, at Secretary Clinton's direction, we moved quickly to conduct a 
worldwide review of our overall security posture, with particular 
scrutiny on a number of high-threat posts.
    With the Department of Defense, we deployed five Interagency 
Security Assessment Teams--made up of Diplomatic and military security 
experts--to 19 posts in 13 countries . . . unprecedented cooperation 
between our Departments at a critical time. These teams have provided a 
roadmap for addressing emerging security challenges.
    We're also partnering with the Pentagon to send 35 additional 
detachments of Marine Security Guards--that's about 225 Marines--to 
medium and high threat posts, where they will serve as visible 
deterrents to hostile acts. This is on top of the approximately 150 
detachments already deployed.
    We are realigning resources in our 2013 budget request to address 
physical vulnerabilities and reinforce structures wherever needed, and 
to reduce the risks from fire. And let me add: We may need your help in 
ensuring we have the authority to streamline the usual processes and 
produce faster results.
    We're seeking to hire more than 150 additional Diplomatic Security 
personnel--an increase of 5 percent--and to provide them with the 
equipment and training they need. As the ARB recommended, we will 
target them squarely at securing our high threat posts.
    I want to second Bill's praise for these brave security 
professionals. I have served in this Department for only 2 years, 
having come from the private sector. However, as I have traveled to 
places like Iraq, Afghanistan, and Pakistan, I have seen firsthand how 
these dedicated men and women risk their lives. We all owe them a debt 
of gratitude, as they go to work every day to protect our more than 275 
posts around the world.
    As we make these improvements in the field, we're also making 
changes here in Washington.
    We named the first-ever Deputy Assistant Secretary of State for 
High Threat Posts within the Bureau of Diplomatic Security. And we're 
updating our deployment procedures to increase the number of 
experienced and well-trained staff serving at those posts.
    We are working to ensure that the State Department makes decisions 
about where our people operate in a way that reflects our shared 
responsibility for security. Our regional Assistant Secretaries were 
directly involved in our Interagency Security Assessment process and 
they will assume greater accountability for securing their people and 
posts.
    We will provide this committee with a detailed report on every step 
we're taking to improve security and implement the Board's 
recommendations.
    We will look to you for support and guidance as we do this. 
Obviously, part of this is about resources. We must equip our people 
with what they need to deliver results safely, and we'll work with you 
if needs arise. But Congress has a bigger role than that. You have 
visited our posts, you know our diplomats on the ground and the 
challenges they face. You know our vital national security interests 
are at stake--and that we are all in this together. We look forward to 
working with you.
    Thank you, Mr. Chairman, for your support and counsel. And for this 
opportunity to discuss these important matters. We would be happy to 
answer your questions.

    The Chairman. Thank you very much, Secretary Nides and 
Secretary Burns.
    Senator Lugar is also going to yield his time, so we will 
go directly to Senator Boxer.
    Senator Boxer. Thank you so much, Mr. Chairman. And, 
Senator Lugar, I will miss you very much.
    I want to join in sending my very best wishes to Secretary 
Clinton as she recovers. And would you please tell her that all 
of us do? We would like to get that message to her.
    And I send my deepest thanks and grief once again to those 
that we lost, to the families of those that we lost. I know 
they are suffering, especially in this holiday season.
    I praise Secretary Clinton for ordering a truly independent 
and tough investigation of what happened in Benghazi. I 
attended a classified briefing with most of my colleagues 
yesterday, and while I cannot say everything or much, I can say 
this. I found this to be an extraordinary presentation. It was 
clear. It was tough. And I believe if we do not listen and 
follow the recommendations, it would be a disaster for our 
people out there in the field. And I believe that we will.
    And I thank our chairman and our ranking for having this 
hearing because I know it is the end of the year, but we have 
to change the way we view the security at our missions because 
times are changing and he needs are changing.
    Look, let us be clear. The administration requested $2.6 
billion for embassy and diplomatic security for fiscal year 
2012, but the House cut this request by more than $300 million. 
Now, we, the Senate, helped restore some of the funds, but it 
still was $200 million short.
    Now, I love our military bands. As a matter of fact, I 
always go to the concerts. And it is just important to note 
that in the House, there was an amendment to cut some funds 
from the military bands, which failed, and the funding for the 
military bands is $388 million.
    So all I want to say is we need to get our priorities 
straight around here, and we cannot walk away and invite 
another tragedy. And as much as people like to say, well, it is 
not the money, it is the money. You cannot protect a facility 
without the funding. I am looking at the security at our 
schools now just after the tragedy in Connecticut, and it costs 
money to get the facilities hardened, to get the personnel that 
are needed.
    So Ambassador Stevens was a proud Californian. There is a 
hole in all of our hearts.
    I am going to get to my questions, and I guess I am going 
to ask it straight out. Do you plan in the next budget to 
request the funding levels that are necessary for protecting 
all of our facilities?
    Mr. Nides. The answer to that is ``Yes,'' Senator. I am all 
too aware, as we all are, of the constraints in which we are 
living. To remind the committee, as you all are well aware, for 
everything we do at the State Department, and that includes 
protecting over 275 locations around the world, for all of the 
assistance we provide, including the assistance to Israel, all 
of our programs, including PEPFAR--everything we do at the 
State Department, as Secretary Clinton has articulated many 
times, it is less than 1 percent of our Federal budget.
    Senator Boxer. So my question is, Are you going to submit 
to us a plan and the money request that you believe you need, 
absolutely paying attention to fiscal constraints?
    We are not asking for bells and whistles. But will that be 
what you truly believe you need? Because I hope so, because you 
cannot count on us to know what the needs are.
    Mr. Nides. There is no question, Senator Boxer, that we 
will be doing so. As you know, Secretary Clinton asked us--or 
ordered us--to come to the Congress and amend the 2013 budget 
request to do three things: to pay for additional Marine 
deployments in some of our high-risk posts, No. 2, to add $750 
million for our construction costs, and, three, to increase 
diplomatic security about 5 percent.
    We are now in the midst of the 2014 budget process. We 
intend to come back to this committee once we do our 
assessments. As you know, as I pointed out earlier, we had an 
assessment team between the Department of Defense and the State 
Department and looked at 19 high-risk posts. My assumption is 
we will be coming back to do that.
    Senator Boxer. I do not want to cut you off, but I have to 
because I only have a minute.
    Mr. Nides. Please.
    Senator Boxer. So you are going to ask us for what you 
need, and that is important.
    Mr. Nides. Yes, absolutely.
    Senator Boxer. And second, the troubling thing here is that 
there were repeated requests to implement security upgrades in 
Tripoli and Benghazi, and as we look at this report, we know 
what happened. And I would like to know, do you intend to put 
into place a process that would allow for a second review of 
these requests by another body within the State Department, 
because it seems like what happened is the request came. It 
went to one particular individual or desk, and then it never 
saw the light of day.
    Mr. Nides. Senator, the answer to that is ``Yes.'' You 
know, one of the recommendations that ARB has is that we, in 
fact, look at the requests, how they are given to us, how we 
examine those requests. And, yes, we will learn from the 
incidents in Libya and very clear about digging into those 
requests. As I pointed out earlier, we have already begun to 
set up individual tasks to look into that.
    Senator Boxer. May I ask one last quick question? Thank 
you. Was it appropriate to rely so heavily on Libyan militias 
to guard American personnel? How was that decision made, and 
how do we avoid these types of failures? Are there standard 
policies and procedures for the hiring of guards? Was Libya an 
anomaly, or are there other facilities around the world where 
we are relying on the same type of forces?
    Mr. Nides. Well, as you know, Senator Boxer, we rely upon 
the Vienna Convention, which we have for over 200 years. The 
fact for us on the ground is that we rely on the local 
governments and the government's forces to protect us. We have 
to do that because we do not have the ability to have enough 
troops on the ground, and most of the countries will not allow 
us to.
    So one of the tasks that Secretary Clinton asked us to do 
when we sent out the assessment teams, to ask two very clear 
questions: Countries intent to protect us and their ability to 
protect us. And sometimes those two are different. And as we 
see what we refer to as the new normal, we have to constantly 
ask ourselves those questions, and that is what we are doing.
    Senator Boxer. Would you write to us and let us know if 
there is any other facilities that are relying on militia? 
Thank you.
    [The written answer by the State Department to Senator 
Boxer's question follows:]

    Host governments are obligated to protect diplomatic missions under 
the Vienna Convention on Diplomatic Relations of 1961. Libya was 
unique, but I will be happy to send up experts to brief you on our 
security posture in high threat places. In the case of Libya, the 
militia forces are affiliated with the Government of Libya and the 17 
February Brigade personnel were supplied to us by the Libyan 
Govermnent. Thus, these militia forces were host-nation-provided 
security.
    The Accountability Review Board provided a comprehensive evaluation 
of serious security challenges that we have already begun to address. 
Secretary Clinton has accepted all of the Board's recommendations and 
has asked Deputy Secretary Nides to lead a task force to ensure the 
recommendations are implemented quickly and completely, as well as to 
pursue steps above and beyond those recommended in the Board's report. 
We look forward to working with the Congress as we take measures to 
improve security at our posts around the world.

    I thank you.
    The Chairman. Thank you, Senator Boxer.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman. And I, too, want 
to thank Senator Lugar for many, many years of great service, 
and we will miss him.
    And I also want to wish Secretary Clinton a speedy 
recovery. I do think it is imperative that--we appreciate both 
of you being here. I think it is imperative that she come 
before this committee, and I think it would be really a shame 
to turn the page on this without--and go to a new regime 
without her being here. So I do look forward to that happening 
whenever her health permits.
    But I thank you for being here, and I do want to say that I 
was on the ground in Libya right after this happened and was 
with our team there, and witnessed the shock of them losing the 
colleagues they lost. Met the JSOC folks who were nothing short 
of absolute American heroes in what they did. But also 
witnessed the despair of a group that felt like I think, they 
were out on a tether and did not have the support of 
Washington.
    I am dismayed that this hearing is already centered on 
additional money, which may well be needed, but as Senator 
Boxer just said, we would have no idea because we have never 
done a top-to-bottom review of the State Department ever since 
I have been here in the minority for 6 years. And I hope that 
will change with this next Congress. So we have no idea whether 
the State Department is using its money wisely or not, and I 
think that is a shame.
    To each of you, I will tell you, what I saw in the report 
is a department that has sclerosis, that does not think outside 
the box, that is not using the resources that it has in any 
kind of creative ways, is not prioritizing. I cannot imagine 
sending folks out to Benghazi after what we saw from the 
security cameras and the drones--I cannot imagine that we had 
people out there with a lack of security existing. And it seems 
to me that what the State Department would have done is to 
prioritize, and if, in fact, we cannot have people safely 
there, not send them there.
    So I would just like a brief response from Secretary Nides 
as to why we did not prioritize that. Secretary Clinton just 
sent up a notification to Congress asking for $1.3 billion. Why 
did she never ask for any notification or change of resources 
to make sure Benghazi was secured? Why did that not happen?
    Mr. Nides. Thank you, Senator. As you know, we have fully 
and completely embraced the recommendations----
    Senator Corker. I understand--by the way, you all have had 
18 ARBs in the past, and you have never fully implemented one 
yet--not one. So I do not want to talk about this ARB. I want 
to talk about why you did not ask for the resources for 
Benghazi just like was done this week on this ARB. Just tell me 
why.
    Mr. Nides. As you know, Senator, we must reexamine all of 
our high-risk posts and determine the situation as we see as 
new evolving risks are occurring. As you are well aware, we are 
in a situation where the Middle East is evolving, democracies 
are growing, militaries are forming, and we must look at each 
and every one of those sites and every one of our posts and 
reexamine under a new normal----
    Senator Corker. You were aware of the security risks there. 
We have read the cables. You were fully aware, and either you 
send people there with security or you do not send them there. 
I do not understand why you did not send a notification up with 
the cables coming in, with concerns about security. Why did you 
not do just what you did with this ARB seeking additional 
funds? I do not understand.
    The Appropriations Committee has never received from the 
State Department a notification asking to shift funds for 
security in Benghazi. I just want you to tell me why that did 
not happen, because you do it all the time. It happens almost 
weekly.
    Mr. Nides. Senator, as you know, we are constantly 
evaluating our security. We are constantly reevaluating where 
we need funds. And we are constantly evaluating the current 
situation the ground in all of our countries. As you know--as 
you are well aware, we have risks all over the world, and we 
are constantly evaluating and determining at the time.
    And clearly, as the ARB points out, mistakes occurred. We 
need to look at those mistakes. We need to examine those 
mistakes. We need to make ourselves accountable for those 
mistakes. And we need to figure out how to make sure this does 
not happen again.
    I should point out, as you know, we get this right about 99 
percent of the time. We would like to be at 100 percent without 
question. We have over 275 posts around the world. Our men and 
women are in danger all over the world, and we attempt to try 
to do this 100 percent. And we hope that this ARB and the 
recommendations, we will actually learn from them and we are 
determined to make sure this does not happen again.
    Senator Corker. Just one last point. There has been a lot 
of talk about money, and it is just amazing every time there is 
an issue we start talking about more money. The fact is that 
you had 16 site security team personnel on the ground. They 
were at no cost to the State Department, totally funded by the 
Defense Department, no money issue. They had been there for a 
long, long time. They had been extended multiple times at no 
cost to you other than the lodging for them to be there. The 
Defense Department totally pays for them.
    Tripoli asked that they be extended, and you did not do it. 
This has nothing to do with money. Why did you not do that?
    Mr. Nides. As you know, Senator, that team was in Tripoli, 
it was not in Benghazi. Members of that team visited Benghazi a 
few times. But the team, just to be clear, was posted in 
Tripoli.
    Senator Corker. And they would have been a team--we only 
had a person there on the ground 40 days a year. I assume they 
would have traveled and been there when we had our Ambassador 
there. So I just do not understand. You talk about money, but 
you had 16 people there free from the Defense Department they 
requested that they stay, and you denied that. I do not 
understand that.
    Mr. Nides. They were extended three times, Senator, and 
they--but more importantly, the team was, in fact, in Tripoli. 
And some did, in fact, visit Benghazi a few times during their 
time.
    The Chairman. Senator Corker, let me just say I think you 
asked good questions, but I also would ask you to review 
Admiral Mullen's and Ambassador Pickering's request because it 
has a very specific set of requirements with respect to funding 
they talked about.
    Senator Corker. I have reviewed it, and I will say that 
there have been 18 ARBs. Not a single one of them has ever been 
fully implemented. So I understand about this process. I am 
just saying that the culture within the State Department to me 
is one that needs to be transformed. This committee can help. 
Maybe the next Secretary of State can help. But the fact is 
there is a lot of work that needs to be done there.
    The Chairman. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. I, too, want to 
say to Senator Lugar that he is leaving behind an extraordinary 
career and lasting legacy. I am sure he is going to serve in 
many other ways in the future. We appreciate your service, and 
we certainly remember Ambassador Stevens as the hallmark of 
what Foreign Service is all about.
    Our challenge--both here at home and abroad--is that, in 
the context of terrorism, terrorists have only to be lucky 
once. We have to get it right 100 percent of the time. It is a 
heavy burden and not an easy one. Obviously, this time we did 
not get it right, but the State Department acknowledges where 
it made a mistake.
    What I find extraordinary, as Congress is always very good 
at doing, is that it only casts blame on one side, but never 
seems to take any responsibility of its own. I still hear 
voices that will not take responsibility. There have been about 
18 Accountability Review Boards but, if I am not mistaken, this 
is the first that is inside the administration.
    Obviously, this is going back and forth, and you cannot 
even implement all of the Accountability Review Board's 
recommendations since a significant part of the recommendations 
are about resources and Congress does not have the resources to 
meet those recommendations.
    We need to frame this in the context of making sure that we 
collectively--both the State Department and Congress--take our 
responsibilities to protect our embassies and our diplomatic 
personnel abroad.
    In that respect, reading directly from the unclassified 
section of the report, the Accountability Review Board says, 
``Among various departments, bureaus, and personnel in the 
field, there appears to be a very real confusion over who 
ultimately was responsible and empowered to make decisions 
based on both policy and security considerations.''
    Can you tell me, Ambassador Nides, how we are going to 
change that? It sounds like there are silos. It sounds like 
there was a lack of understanding, and a lack of clear 
definition of responsibility. How are we going to meet that 
challenge and change it in terms of that recommendation?
    Mr. Nides. As recommended by the ARB, we are going to focus 
very clearly on the issues of organizational structure within 
Diplomatic Security. We are, two, going to look very closely at 
the involvement of the Bureau, which oversees the countries in 
which the security recommendations are put forward. We are 
going to make sure that communications between the field and 
diplomatic security is correct. And we will, as suggested, 
continue to make sure there are double checks to make sure that 
those requests are evaluated and looked at with a lot of 
eyeballs.
    So we are going to learn from what the ARB has suggested as 
we look at the security requirements, but be very clear-eyed 
about the requests and the determination on the security 
situation on the ground.
    Senator Menendez. So, are we going to have a more 
horizontal effort within the State Department instead of silos? 
Both in sharing information and knowledge, but with a clear 
delineation of who takes the ultimate responsibility?
    Mr. Nides. Yes, sir. We need to learn from this, and I 
think that was one of the lessons that came out of the report, 
and we intend to incorporate that not only in our thinking, but 
in our actual reality of how we do our operations.
    Senator Menendez. Now, one of the other elements of the 
report is intelligence: in essence, an intelligence failure. We 
have relied upon specific threats as the basis of reacting and 
preparing, versus a careful consideration of a deteriorating 
threat situation, in general, as a basis for improving security 
posture. Can you talk about how the State Department seeks to 
pursue that new reality?
    Mr. Burns. Yes, Senator, sure. I mean, that is a challenge 
that we need to be much effective in addressing, both within 
the State Department and also, I think, throughout the 
intelligence community.
    The truth is across Eastern Libya for many months before 
the attack took place in Benghazi, there was a troubling 
pattern of deteriorating security, not all of which was 
directed at the United States. But there has been a tendency, 
not just in the case of Eastern Libya, but I think across the 
world in recent years, for us to focus too much on specific 
credible threats, and sometimes lose the forest for the trees.
    And I think that is something that, you know, we were 
painfully reminded of in the case of the Benghazi attack that 
we need to do better at. And there are some specific 
recommendations that the Accountability Review Board has made 
that we will implement relentlessly. And the State Department 
will certainly work with the rest of the intelligence 
community.
    Senator Menendez. Finally, we read from the Accountability 
Review Board report again and listened to the testimonies of 
both Ambassador Pickering and Admiral Mullen, where they made 
it very clear that, while many mistakes were made--and they 
outlined and responded to each of them--a significant problem 
was resources. We can hide our heads in the sand, or we can 
ultimately meet that challenge. They say it is imperative for 
the State Department to be mission oriented rather than 
resource constrained, particularly with its increasing presence 
in risky areas of the world that are integral to U.S. national 
security.
    So, in that respect, I hope that when the State Department 
presents its new budget it asks for what the Accountability 
Review Board has recommended as one of its suggestions. I also 
hope that, in fact, it also gives us the sense of the reforms 
that you are pursuing so that Congress will feel empowered to 
be responsible, and to therefore, help the Department of State 
meet the challenges of our diplomatic support.
    The Chairman. Senator Risch.
    Senator Risch. Thank you, Mr. Chairman. First of all, it is 
really unfortunate that we have to go through an incident like 
this in order to get our act together, if you would. Everybody 
here has been to embassies all over the world, and what has 
already struck me is, first of all, I feel really good when I 
see those marines standing there and they say, good morning, 
sir, when you walk in.
    But usually before that, you have to go through a tranche 
of these locals, as you have told us, that are operating under 
a 200-year-old agreement to protect our operations in their own 
countries. And, you know, the world has really changed over the 
last 200 years, and you get a real sense of incompetence when 
you go through there. Generally, those people are confused. 
Most of them you wouldn't meet going into a theater here in the 
United States having the kind of competency that they have.
    So I guess what you are going to have to do is instead of 
treating all these the same, each one is going to have to be 
treated differently. Every host country is going to have to be 
treated differently because our reputation in the world or the 
feeling about Americans in the world has changed dramatically 
over the last 200 years, and there is countries where, such as 
Western Europe, where we don't have to have what we have. And 
yet you go to other places, and I have been shocked in some of 
the countries I have been in that are not countries friendly to 
the United States and seen the minimal amount of Marine 
presence that we have had there.
    And then, of course, we all learned, I think, at least I 
did for the first time--or I guess I had heard it, but it 
didn't stick previously--that the Marines are there to guard 
the documents. And I mean, that is shocking. Their first 
obligation ought to be to protect Americans that are serving in 
that embassy. I am hoping that is going to change. I am sure it 
will change.
    And it would seem to me the rules of engagement really need 
review. I looked at those people streaming through the front 
gate in Benghazi. That wouldn't have taken that much to stop 
that attack if, indeed, they would have responded to it 
immediately, it seemed to me. Again, you are looking at film, 
and I understand it is a lot more sterile than actually being 
there on the ground at the time.
    But when armed people are coming through the front gate, it 
would seem to me it is time to do something about it, and 
nothing was done about it until virtually everybody was in.
    So, again, I really don't have any questions for you. I 
have looked at the review board. We all have our own view of 
maybe what should be stronger, what should be less. But the 
bottom line, the take-away for me is things are going to have 
to be done a lot different than what they have been done. And 
we really need to discriminate amongst countries as to what 
kind of effort that we put forward.
    So, with that, I will yield the rest of my time. Thank you, 
Mr. Chairman.
    The Chairman. No, thank you very much. Good observations.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    I also want to add my congratulations to Senator Lugar for 
his incredible career. We are losing a real partner on this 
committee in the U.S. Senate, but I know you will continue your 
service to our country. Thank you very much.
    And to Secretary Burns and Nides, I thank you for your 
service, and our prayers once again go out to those who we lost 
in Benghazi.
    I want to follow up on--and one other point I might make, 
Mr. Chairman, and that is I know you have worked on the State 
Department authorization bill. I think it is important in the 
next Congress that we have full committee discussions on the 
State Department Authorization Act so that we can weigh in in a 
more deliberative way on the policies that are under the 
jurisdiction of this committee.
    I want to follow up on both Senator Corker and Senator 
Menendez's points on intelligence. Recommendation 21 is very 
clear on this, that post 2001 intelligence collection has 
expanded exponentially. That is true. The Benghazi attacks are 
a stark reminder that we cannot overrely on the certainty or 
even likelihood of warning intelligence and that careful 
attention should be given to factors showing deterioration, 
threat situations in general, as a basis for action.
    Let me just point out that it was clear in Benghazi that 
the security was deteriorating. Maybe not a specific threat. We 
didn't have information about that. That was also clear.
    We also knew that the local security team was not 100 
percent reliable. And yet the security details that we had in 
Benghazi, as the report points out, were inadequate.
    So I would like you to expand more on how we are going to 
institutionalize careful attention so that we do not allow a 
situation such as Benghazi to occur in the future. You can't 
eliminate all threats. We know that. But we also understand 
there was not adequate security at the Benghazi facility based 
upon the deteriorating circumstances.
    How do we institutionalize that careful attention to make 
sure that in those types of dangerous assignments that we have 
adequate security? And I want to add one more thing.
    Ambassador Stevens knew Libya perhaps better than any other 
American. His judgment will never be second-guessed.
    But it is important that in dangerous posts that there be 
more than just the head of mission, who is responsible for the 
security, no question about it. But that he has the best advice 
on a broader basis as we go into these types of circumstances. 
How do we institutionalize that?
    Mr. Burns. Let me start, Senator, because you raise a very 
good point. I think the truth is, as I said before, first with 
regard to the intelligence that in eastern Libya, there was a 
troubling pattern that had developed. A lot of the violence and 
the security incidents were intra-Libyan. You know, some of 
them were directed at the U.S. and Western targets, but not all 
of them.
    And I think we made the mistaken assumption that we 
wouldn't become a major target for those----
    Senator Cardin. But this was also the anniversary of 9/11. 
There was a lot of reasons to believe----
    Mr. Burns. There were. There were a number of different 
motives, potential motives, as the ARB report makes clear. And 
as you said, Senator, Chris Stevens understood Benghazi as well 
as anyone and understood the risks as well as anyone.
    But I think one of the painful lessons we have learned is 
the importance of being able to take a step back and try to 
analyze better the broader pattern of security challenges that 
were emerging and so that there is a sense of responsibility on 
the part of all of us in the State Department for trying to 
better understand those challenges and not be so fixated on 
specific credible threats and then take that into account in 
dealing with what were the obvious security inadequacies made 
obvious by the Accountability Review Board in Benghazi.
    Senator Cardin. I know that I am going to be interested and 
I think all the members of the committee are going to be 
interested as to how you institutionalize that review that goes 
beyond just specific threats. And I would hope you would share 
that with us.
    Secretary Nides, you mentioned that there is a streamlining 
process so that you can move quicker to implement. You also 
mentioned there may be some concerns with additional Marine 
assignments with the host country.
    Is there anything that we need to be aware of, as you 
implement these recommendations, as it relates to bureaucratic 
streamlining that may require congressional attention or 
problems with host countries as we want to put more Marines in-
state, in-country?
    Mr. Nides. Senator, thank you.
    It has been an unprecedented cooperation between the State 
Department and the Defense Department I should say. I mean, not 
only did they agree to send very competent, very trained 
officials with our State Department colleagues to those 19 
posts immediately, right after the incident, to evaluate all 
these countries during the period of time of the current unrest 
that is going on.
    But two, one of the recommendations that came back that 
General Dempsey along with SECDEF Panetta and Secretary Clinton 
and the White House agreed to, that the use of additional 
Marine detachments would be enormously helpful. Again, the 
Senator is correct. The mission of those Marines is, in fact, 
statutorily to protect classified information, but there is 
also no question, for all of us who have come into those 
embassies with the Marine detachments, they are a deterrent. 
They are imposing deterrence, and it comes with a lot of other 
things.
    So the additional request of the 35 additional detachments, 
which include about 250 additional Marines, we are also going 
to be asking to build potential barracks on our grounds, where 
we possibly can. So the marines, the five individuals in each 
detachment, could actually potentially live on the facilities 
that are close by.
    So the cooperation between the Defense Department and the 
State Department, in my view, is somewhat unprecedented for a 
situation like this, and we will be coming to the Congress for 
not only the appropriations to pay for that, but also 
potentially the authorities in which we will be working with 
DOD and come and discussing that with the relevant committees.
    Senator Cardin. Thank you.
    The Chairman. Thank you, Senator Cardin.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    I want to begin by commending Senator Lugar on his service 
to our country. And what I am about to say I hope you will take 
as a compliment. I have been watching you since I was in high 
school, and I mean that as a compliment.
    Growing up in Miami, foreign policy somehow found its way 
into our local politics, too, and I have a passion for foreign 
policy partially by watching your career. I am just pleased 
that I got a chance to serve with you for 2 years on this 
committee.
    I also want to thank both of our witnesses for being here 
today and for your service to our country. I do that every time 
because I know how unrewarding the job could be at times, but 
how rewarding it could be at others. So thank you for being 
here.
    I want to say this report has really furthered our 
understanding of what happened in Benghazi, and I appreciate 
it. There is one part of it that I am, I don't want to say the 
word ``concerned,'' but I am a bit puzzled by. And that is that 
it places a lot of the blame on lower level officials, 
particularly Assistant Secretary level officials.
    And why I find that quite puzzling is because Benghazi and 
Libya, in general, is not some remote outpost. It is not 
Luxembourg. I mean, this is a country that we were involved in 
militarily not so long ago in a high-profile intervention.
    And so, I am curious because on page 5 of the report, the 
unclassified version, it talks about the--you know, it was just 
not a priority for Washington. The special mission was not a 
priority for Washington when it came to security-related 
requests, especially those relating to staffing.
    So I want to understand who Washington is, and in that 
frame of mind, I think, Secretary Burns, I have a number of 
questions. I know that Secretary Clinton visited Libya in 
October 2011. Did the security situation, the deteriorating 
security situation come up during her visit there, whether with 
the country team or in her interactions with the Libyans?
    Mr. Burns. Well, Senator, I am sure in general terms that 
it did. I wasn't on that trip. So I don't know specifically.
    I can speak to my own experience. I also visited Libya----
    Senator Rubio. In July, correct?
    Mr. Burns. I visited in July. I also visited in September 
after the attack in Benghazi. And so, I can speak to my own 
experience. And you know, as Secretary Clinton has said, all of 
us as senior leaders in the Department are accountable and 
responsible for what happened. And I certainly fault myself.
    You know, I accompanied the remains of my four colleagues 
back after the attack in Benghazi. I had been in the Middle 
East on a trip and cut short a trip to Iraq to come back with 
them. And on that long flight home, I certainly had a lot of 
time to think about sharper questions that I could have asked, 
sharper focus that I could have provided.
    Senator Rubio. But on your visit in July or September as 
well--did you go in July?
    Mr. Burns. September--I was in July.
    Senator Rubio. After--correct?
    Mr. Burns. Yes.
    Senator Rubio. Did that issue in specific come up? Did the 
folks on the ground there say to you, ``We are really worried 
about what is happening here with security. We have made a 
number of requests.''
    Mr. Burns. There was no specific discussion of that. I did 
talk to Ambassador Stevens in general terms about the security 
situation, but we didn't talk about specifics at that time.
    Senator Rubio. Now Secretary Clinton met with the Prime 
Minister of Libya in March. Do you know if the security 
situation came up in that meeting?
    Mr. Burns. This is in March of?
    Senator Rubio. Of 2012.
    Mr. Burns. I am certain it did. We certainly emphasized the 

importance of not only improving the security capabilities of 
the Libyan interim government at that time, we offered a number 
of programs to help them build those institutions, which 
remained one of the greatest weaknesses of the Libyan interim 
government. That was a central feature, as it was in July, when 
I met with the Prime Minister as well.
    Senator Rubio. But in that particular meeting, you don't 
know if that--you are pretty sure that the issue came up. You 
just don't know the full content?
    Mr. Burns. I don't know all the details. No, sir.
    Senator Rubio. Well, you met with the Deputy Prime Minister 
in June of this year. Did it come up in that meeting?
    Mr. Burns. It did. And again----
    Senator Rubio. What did they say?
    Mr. Burns. Well, the focus there was on urging them and 
offering support for their development of security 
institutions, which at that time, and to this day, are still 
extremely weak.
    Senator Rubio. All right. Who in the Department reviewed or 
was briefed on the cables that were sent from the post in June 
and August 2011 regarding the security situation? To what level 
did those cables get reviewed?
    Mr. Burns. Well, they certainly would have been reviewed up 
through Assistant Secretary level, and it may be that some of 
my colleagues on the seventh floor saw them as well.
    Senator Rubio. So beyond that level, were any senior 
officials 
beyond the Assistant Secretary level made aware of the repeated 
requests from the posts for extended or additional security? In 
particular, there were requests made in March and July 2011. Do 
you know, beyond the Assistant Secretary level, those requests 
were ever forwarded in a memo or in some other written 
document?
    Mr. Burns. I am not aware of any specific memo that went 
beyond the sixth floor with regard to those specific requests 
at that time. No, Senator.
    Senator Rubio. Do you know if anyone beyond the Assistant 
Secretary level going up to the Secretary's level, were they 
made aware of the more than 200 security incidents that had 
occurred in Benghazi in the 13 months leading up to the attack?
    Mr. Burns. There were certainly memos that came up to the 
seventh floor that talked about the deteriorating security 
situation in eastern Libya. Yes, sir.
    Senator Rubio. And finally, after all these different trips 
to Libya yourself, the Secretary, others, other senior 
officials in the State Department, were there any memos 
produced after those visits to the tune of basically saying we 
have been to Libya, and by the way, there are two things.
    The station is concerned about security in general, and the 
Libyans are concerned about their ability to provide security 
as we are relying on them.
    Do you know if any memos were produced in that or any high-
level meetings about that topic took place above the Assistant 
Secretary level? Were there any meetings convened, memos 
produced on that issue?
    Mr. Burns. Well, there were certainly meetings that took 
place at senior levels with regard to the situation in Libya in 
general and particularly with regard to the concern about the 
very weak security capabilities of the Libyan Government at 
that time. And so, certainly, that was the subject of fairly 
consistent concern.
    And as I said, we made a number of offers and on a number 
of occasions pushed the Libyan interim government to try to 
move to accelerate their efforts to develop those institutions, 
which related directly to the security----
    Senator Rubio. So my last question is beyond the Assistant 
Secretary level. There was a general and specific awareness of 
a rapidly deteriorating security situation in Libya, of the 
repeated requests from the team on the ground for security, and 
of the inability of the Libyans to----
    Mr. Burns. Senator--sorry. Senator, what I would say is 
there was certainly a general awareness of both the 
deteriorating security situation in eastern Libya, and also 
there was not only a general awareness, but a real concern 
about the difficulty that the Libyan interim government was 
having in developing capable security institutions.
    Senator Rubio. Above the Assistant Secretary level, that 
awareness existed. Correct?
    Mr. Burns. The awareness with regard to the incapacity of 
the Libyan interim government in developing security 
institutions; yes, sir. And we worked hard to try to push the 
Libyans to move faster in that direction.
    Senator Rubio. Thank you.
    The Chairman. Thank you, Senator Rubio.
    Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    And I want to reiterate what has been said by many on this 
panel today about Senator Lugar's great leadership and been a 
mentor to so many of us, even when he didn't know he was being 
a mentor, and a great example to us. We are certainly grateful 
for his service, and I know he will continue to serve in 
another capacity or many capacities.
    We also want to express again the condolences that I have, 
I know, and so many in this room today, about the loss that the 
State Department suffered, Ambassador Stevens and the others 
who were killed. And that is why the questions that we are 
debating are so grave and so meaningful.
    Reflecting upon the challenge that you both have and the 
State Department has in light of the report and in light of the 
subject matter that led to the report, because of that, I guess 
you try to think in your own life what experiences are relevant 
to inform the questions that you have or the points that you 
want to make.
    Two are relevant in my life. One is the traveling that I 
have done across the world as a member of this committee--three 
times in Pakistan, three times Afghanistan, several trips to 
the Middle East. The last time, Senator Shaheen and I were 
traveling together, and seeing the difficulty of providing 
security not only for folks in embassies and consulates, but 
when Members of Congress travel and the danger that we feel 
sometimes, even with the knowledge that we have security around 
us.
    So getting that balance right, but as you know, we do have 
to get it right every time. And taxpayers expect that, and they 
expect us to put forth every effort. They expect it of you. 
They also expect it of us.
    The other experience I have as a State official leading 
investigations and audits of public agencies and at times 
kicking the hell out of them, really hitting them hard, being 
very critical, calling for people to be fired, demanding 
accountability for tax dollars and for results.
    I do know this, though, when a report is issued and 
findings are made, you can't simply have us in Congress, or in 
the case of State officials in my experience, just yelling and 
screaming about the results and yelling and screaming about 
recommendations. You have to implement them.
    Resources matter. Whether it is personnel or, in the case 
of some of the work that I did, information technology, 
hardware, whatever it takes, we have got to dedicate the 
resources. You cannot get the results that you want just by 
yelling and screaming. You have got to have investment in 
resources.
    Third. The third point I would make is that your 
credibility as a department will be greatly enhanced by the 
pace of implementation, by the demonstrable success you have--
in other words, the taxpayers can see that you have made those 
changes--and by the steps that you are taking now in the next 
couple of days and weeks.
    That is mostly important for the broader concerns that we 
have, but it is especially important when you come back here 
and ask for dollars. So I will stand with anyone to say that 
resources matter. I know that from personal experience. But 
your credibility would be enhanced when you ask for those 
resources, when you can specifically focus on what those 
resources will go for, and how you are going to be able to 
change the dynamic.
    So let me just--I don't have much time, but with that 
predicate, let me ask a question that I am not sure has been 
raised yet. Or maybe two quick questions.
    No. 1, host country cooperation and partnership. I know 
there is great variance or it varies by country and by 
situation. But if either of you, Deputy Secretary Burns or 
Deputy Secretary Nides, can speak to the question of the 
challenge of having host country partnership?
    And then, Mr. Nides, if you could just quickly one more 
time walk through the timeline of implementation of some of the 
recommendations?
    Mr. Burns. Well, first, Senator Casey, I mean, obviously, 
one of the lessons of all the changes that have taken place 
across the Middle East in the last couple of years, as you have 
revolutions and then post revolutionary governments coming into 
place, is that the development of security institutions in 
those countries and their capacity for following through on 
their Vienna Convention obligations for protecting foreign 
diplomats is very uneven and sometimes extremely weak. And that 
is something that we have to both understand and adapt to, and 
that is exactly, as Tom described earlier, what we are 
determined to do as we make changes and strengthen our security 
at our diplomatic facilities over the coming years.
    Mr. Nides. And Senator, we have done four very quick 
things. No. 1, we quickly went up here and asked the 
Appropriations Committee for additional funds for 2013. As you 
know, the 2013 appropriations process is already well on its 
way, as you know.
    No. 2, we formed the ISAT teams and got them out into the 
field immediately with DOD to the 19 posts, and we will have 
recommendations on those high-risk posts very soon and very 
quickly.
    No. 3, we took the 60 tasks--excuse me, the 29 
recommendations and broken them down into 60 specific tasks, 
and assigned them. I had my first meeting 2 days ago with the 
steering committee, with the task force, and divided them up, 
giving them timelines, dates, making sure we will execute many 
of them, hopefully, before the end of this calendar year and be 
able to set up for the next Secretary to come in and make sure 
that we are executing the rest of them.
    Then finally, obviously, we named the first-ever Deputy 
Assistant Secretary for High Risk Posts. We have taken those 
four very quick action steps as we proceed in taking the 
recommendations of the ARB.
    Senator Casey. Anything you can do to keep us updated as 
you go. Thank you very much.
    The Chairman. Thank you, Senator Casey.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me first say that I agree with the sentiments of 
Senator Rubio in his reference to you, Senator Lugar. Except 
since we were both in high school at the same time, I didn't 
get that message. [Laughter.]
    But you have done a wonderful job for a lot of years, and 
we respect you.
    Both Senator Corker and Senator Rubio talked about some of 
the events leading up to the disaster. However, they assumed, I 
guess, that everyone already knew, and I think it is imperative 
for us to put these things in the record so that we know what 
signs were out there.
    I am referring to the one sentence on the report that says, 
``The Board found the intelligence provided no immediate 
specific tactical warning of the September 11 attacks.'' We 
will run over some of these things and then ask you both if you 
agree with that statement. If it is more than a yes or no 
answer, you could do it for the record.
    In April, two former security guards for the consulate in 
Benghazi threw IEDs over the consulate fence. In May, the 
offices of the Red Cross in Benghazi were hit by an RPG.
    The Red Cross closed their doors, and they got out of town.
    In June, militants detonated an explosive at the perimeter 
gate of the Benghazi consulate, blowing a hole through it large 
enough for 40 people to go through. In June, a rocket-propelled 
grenade hit the convoy carrying the British Ambassador to Libya 
in Benghazi, and they, like the Red Cross, got out of town. 
They left.
    In June, Ambassador Stevens wrote that the al-Qaeda flags 
were flying over the government buildings and training 
facilities in that area. In August, security officers stated 
that they did not believe the Benghazi consulate could 
withstand a ``coordinated attack.'' That was in August.
    In August, a State Department cable--we are talking about 
cables now, information that came to you folks--discussed the 
location of approximately 10 Islamist militias and al-Qaeda 
training camps within Benghazi. On September 4, Ambassador 
Stevens warned that Libyan officials had introduced a state of 
maximum alert in Benghazi.
    And then, finally, on September 9, Ambassador Stevens 
requested additional security, 2 days before it happened. Like 
the rest of the members of this panel, I knew him. I knew him 
quite well. I had a great deal of respect for him.
    Now in light of all these findings, these are facts that no 
one has argued with, do either one of you want to say that you 
agree with the statement that I read first in the report saying 
that there were no warnings?
    Mr. Burns. Well, Senator, the statement in the report that 
says that there was no specific tactical threat I think is a 
statement of fact. But you are right to point out the pattern, 
the troubling pattern of deteriorating security in eastern 
Libya in each of the incidents that you discussed.
    The reality is that amongst that deterioration or part of 
that deterioration was a lot of intra-Libyan violence as well. 
Some of it was targeted against the United States. We did not 
do a good enough job, as the report highlights, in trying to 
connect the dots between that troubling pattern, even in the 
absence of an immediate tactical threat.
    Senator Inhofe. OK. And Mr. Secretary Nides, I will assume 
that you pretty much agree with the statement he made.
    Now there isn't time to go into it, but for the record, if 
you would please respond, I would appreciate it very much.
    Mr. Nides. Yes; I do. Yes; I do.
    Senator Inhofe. Then there are two questions. One not so 
significant. It is pretty obvious. And the other is the most 
significant question that isn't asked, is not covered in the 
report, that I would like to get your response to.
    The first is, Were the comments of Ambassador Rice 
completely inaccurate regarding her assertion on five TV shows 
5 days after the event with the video responsible for the 
deaths of Ambassador Stevens and three other Americans?
    And the second question, and this is the one that is 
important, because we all knew, we had testimony. And I will 
read the testimony of the CIA before the house. It said, 
``Although the intelligence community knew from day one that 
al-Qaeda terrorists were responsible for the deadly Benghazi 
consulate attack, someone cut reference to al-Qaeda and 
terrorism from the overview they released on September 14 
instead of those talking points they added.''
    Now somebody in the White House--because this report went 
to the situation room--someone in the White House changed the 
talking points from General Petraeus and the CIA before they 
were given to Ambassador Rice. I assume that they were changed 
and that she was not aware of it or she was aware. That is not 
too pertinent.
    Someone changed it. Do either one of you guys know? Do you 
care?
    Mr. Burns. Senator, here is what I would say. What happened 
in Benghazi was clearly a terrorist attack. Secretary Clinton, 
on the day after the attack, said quite directly that what 
happened in Benghazi was an assault by heavily armed militants 
on our compound.
    Later that same day, President Obama spoke to an act of 
terror. What was not clear at that time was exactly which 
terrorists were involved, what their motives were, exactly how 
this came about, whether this had been planned well in advance 
or was more a target of opportunity. And I am convinced, 
Senator, that my colleagues in the administration who addressed 
this issue and the intelligence professionals, on whom they 
relied, operated in good faith.
    Their focus was on being as factual as possible, and their 
focus was on action. And you have to remember, sir, at this 
time there were mobs coming over the walls of our Embassies in 
Cairo and Tunis and Sana'a. And that was what people were 
focused on.
    And so, the initial inaccuracies, because just as the ARB 
report points out, there were no protests before the attack 
took place. It took several days for the intelligence community 
to conclude definitively that there weren't any protests and 
that there weren't any----
    Senator Inhofe. Let me respond to that because we are 
running out of time.
    Mr. Burns. Sure.
    Senator Inhofe. And I want to give Secretary Nides an 
opportunity to respond. Specifically----
    The Chairman. Well, we have actually--we have actually run 
out of time.
    Senator Inhofe. Well, I know. Others did, too.
    Specifically, the report from the CIA references al-Qaeda 
and terrorism. That is specific. It can't be any more specific 
than that. So I will get your response. If you have time, if 
you will give Mr. Nides time to respond, that is fine. If not, 
he can do it for the record.
    The Chairman. Well, I want him to do it quickly. I am 
trying to honor other Senators who want to get to the Inouye 
ceremony. But I think we have time if you can do it quickly.
    Mr. Nides. No, I concur with Secretary Burns's comments, 
and I do think that the interagency was operating in good 
faith. As someone who was in the room during those 3 days with 
Secretary Clinton, our full and complete focus was on saving 
lives. Sitting there with her as she made calls to leaders of 
all those countries where our men and women were in danger, 
that was what our focus was, and that is what we spent our time 
and energies on.
    Senator Inhofe. And you don't know who changed the talking 
points?
    Mr. Nides. I do not. This was an interagency process. I am 
not aware of how that occurred. It was an interagency process.
    The Chairman. Senator, we would be happy to help you follow 
up to get that pinned down. I think there is actually some 
testimony with respect to that within the intel community--or 
within the Intel Committee.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you both for being here this morning. I think the 
report, the Accountability Review Board report was very direct. 
It was very honest about pointing out that mistakes were made 
within the agency.
    And hopefully, now as the result of the report, as you all 
have indicated, we can move forward. We can hold people 
accountable. We can make the appropriate changes and follow up 
on the lessons that are learned as a result of this tragedy in 
Benghazi.
    I appreciate Secretary Clinton's taking responsibility for 
what happened and, as she points out in her letter to this 
committee, for going even further than the recommendations in 
the report to address the mistakes that were made.
    The Chairman. If I could just interrupt you there? I want 
to put the letter from Secretary Clinton to me and to Senator 
Lugar in the record at this time.
    Senator Shaheen. Good. Thank you, Mr. Chairman.
    One of the things that you pointed out is that you have 
gone out to--or there have been teams to assess the 19 State 
Department locations around the world where they are high-risk 
areas, and I wonder if you can talk about the metrics that are 
being used as we think about how we determine what is a high-
threat, high-risk location and how we are then responding to 
those metrics.
    Mr. Nides. We tasked the teams between the Defense 
Department and the State Department with a variety of questions 
to ask. The principal question to ask was, What was the ability 
for the host government to protect us? Not just their 
willingness, because all of the countries in which we examined, 
every one of them without question wanted to protect us. And 
so----
    Senator Shaheen. Right, and I appreciate that you gave us 
that information in your testimony.
    Mr. Nides. Yes.
    Senator Shaheen. But I wonder if you could be a little more 
specific. When we asked that question, what then is the 
followup to that?
    Mr. Nides. Sure. The security professionals then examined 
the practical things: the abilities for fire, protections of 
perimeter, how close are they to the street.
    I mean, very exact. In fact, we then asked them for 
recommendations, three sets of recommendations--immediate 
recommendations, what things need to be done tomorrow, things 
that could be done between now and 6 months, and then 6 months 
to a year.
    So we got very exact, detailed assessments from each one of 
the teams. We then put them all in a matrix, and we were 
basically going through each one of those requirements, putting 
budget requirements to it, prioritizing them, and we will be 
coming back to this institution, enlisting and helping you 
think through that.
    But we are getting very exact. This was not an esoteric 
discussion. It was very clear and very specific requirements 
for each one of those posts.
    Senator Shaheen. And apropos Senator Corker and Senator 
Casey's questions about implementation of the report, have we 
attached a timeline to all of the various recommendations for 
when those are going to get done, and is that something that 
can be made available to this committee?
    Mr. Nides. Yes, we have already--as I pointed out, we broke 
the 29 recommendations down into individuals tasks.
    As mundane as that might sound, it is critically important.
    Senator Shaheen. Right.
    Mr. Nides. We have assigned individuals to each task.
    We have given the dates that we want the tasks completed 
and whatever recommendations that will actually derive from 
that. So we can certainly share that with the committee at the 
appropriate time.
    Senator Shaheen. Thank you.
    Also can you talk about the coordination between the State 
Department and the Department of Defense? There is a New York 
Times story today that points out that at the time of the 
crisis in Benghazi, the Pentagon had no forces that could be 
readily sent.
    The closest AC-130 gunship was in Afghanistan. There were 
no armed drones within range. There was no Marine expeditionary 
unit available to the African Command.
    And given the potential for further unrest in Syria, in 
Egypt, and across the Middle East, it seems to me that that is 
a question that is really critical as we look at how we 
continue to provide protection for our personnel on the ground.
    Mr. Burns. Well, Senator, first with regard to the specific 
issue of Benghazi, Admiral Mullen addressed this publicly 
yesterday----
    Senator Shaheen. Right.
    Mr. Burns [continuing]. And it was addressed in the report. 
And his judgment and the ARB's judgment is there was simply not 
enough time to have used military force to respond and make a 
difference in that situation. But you raise a very good broader 
question. It is certainly something that we will be working 
through with our colleagues in the Pentagon and elsewhere in 
the administration.
    Senator Shaheen. Mr. Chairman, given again the potential 
for unrest across the Middle East, I would hope that we would 
follow up on this specific question because it seems to me to 
be critical as we look at the situation going forward.
    And I will just conclude by adding my personal thanks and 
appreciation to Senator Lugar. It has truly been an honor to 
serve with you, and you leave a tremendous legacy for this 
committee and for the country.
    Thank you.
    The Chairman. Senator Shaheen, thank you.
    Let me just say that I have thought a lot about what you 
have just said with respect to the availability of teams or 
forces with respect to emergency extraction and/or emergency 
response in various parts of the world, and I think it is 
something we really need to pay attention to and think about in 
terms of deployment and preparedness. So we have got to do 
that.
    Senator Isakson.
    Senator Isakson. I will be real fast so Senator Barrasso 
can also ask questions, too.
    Let me quote my predecessor in the Senate, Senator Sam 
Nunn, by saying they don't make them any better than Dick 
Lugar. I would like to echo that statement.
    Dick, you have been a great public servant and a great 
friend. We appreciate you very much.
    My statement is in your report--in the report by Admiral 
Mullen and Secretary Pickering, it says there was a culture of 
pushback in the State Department. Not a question, but a 
statement. I have seen that culture of pushback. I have been to 
embassies in Africa that have made requests, security-related 
requests that basically were really minor, like securing 
ground-level residence of an apartment building in Malabo, 
Equatorial Guinea, that couldn't get done until a United States 
Senator asked for it.
    So I think the State Department really needs to look at 
their process internally to see to it there is a flow to the 
top of important security requests coming from embassies, and 
that is just a statement on my part.
    My question is, Secretary Nides, you made the statement, 
and I will read the following, ``And let me add, we may need 
your help in assuring we have the authority to streamline the 
usual processes and produce faster results.''
    And this is related to security. What process is inhibiting 
faster results in terms of security in our embassies?
    Mr. Nides. I was using it broadly speaking. As you know, 
every time we put a contract out, there is a bidding process 
that needs to take place. Nothing can be done quickly, as I am 
learning as someone who has come from the private sector into 
the Government again for the second time.
    And it is done rightly, right? The people--bids are put 
out. Contracts are awarded. There is a process. That process, 
unfortunately, takes time. We have oversight that has to be 
done. The contracts are rewarded and are challenged. And so, we 
may need to ask for some authorities to allow us to expedite 
some of those, and that is what I was generally talking about 
in security and other construction.
    Just to build a wall at an embassy could potentially take 
months to go through the contracting process, to get an 
agreement, to get the bid. So we may need to come to this 
institution to protect ourselves for challenges that we have 
during the contracting process. And that is what I was 
referring to, sir.
    Senator Isakson. So it is competitive bid requirement?
    Is that right?
    Mr. Nides. Yes, I am not an expert in it, I should be 
honest with you. But there is--what I am an expert on, there is 
nothing can get done quickly. And I think it is--and some of it 
is legitimate. Some of it needs to be done quickly, and we will 
need to get the authorities in which to do that.
    Senator Isakson. What we should do, Mr. Chairman, is 
investigate negotiated bid because there is a way around the 
competitive bid process in a security situation where you can 
react quickly, and we ought to give you that authority.
    The Chairman. That is a very, very good suggestion, 
Senator, and we will do that for sure.
    Senator Isakson. Thank you.
    The Chairman. Thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    And first, to Senator Lugar, in Wyoming, we have the code 
of the West. And, No. 1 is, live each day with courage, and No. 
2 is, take pride in your work. And you really are the 
embodiment then of the code of the West. So you are always 
welcome in the Rocky Mountain West, and specifically in 
Wyoming. So thank you so much for your leadership, Senator 
Lugar.
    Senator Lugar. Thank you.
    Senator Barrasso. Now for our guests, President Obama 
claims that the moment he heard about the attack on the United 
States consulate in Benghazi, he said he gave three directives. 
And one of those was find out who did this so we can bring them 
to justice.
    In Secretary Clinton's letter to us just 2 days ago, she 
states, ``We continue to hunt the terrorists responsible for 
the attacks in Benghazi and are determined to bring them to 
justice.'' Have you identified the terrorists responsible for 
the deaths of these four brave Americans and the additional 
injuries and the destruction of the U.S. facilities?
    Mr. Burns. Senator Barrasso, first, just to restate that we 
are absolutely committed to bringing those responsible to 
justice. We are absolutely committed to bringing every resource 
of the U.S. Government to bear to accomplish that.
    We are pursuing this through a number of different 
channels, some of which can best be discussed in other 
settings. But as you know, the FBI is leading the 
investigation. The State Department is very actively supporting 
this.
    I have been in Libya to talk to the Libyan leadership about 
the importance of their cooperation in the investigation. I 
think we are making some progress. Our charge on the ground, 
Ambassador Pope, works every day on this issue in support of 
the FBI.
    I was in Tunisia last week to emphasize to the Tunisian 
President and Prime Minister the importance we attach to 
cooperation since they are detaining one of the suspects in the 
Benghazi attack, and I believe we are making some progress 
there.
    So the answer, sir, to your question is we don't have all 
the answers yet, but we are working this relentlessly, and I 
think we are making some progress.
    Senator Barrasso. Thank you.
    With regard to implementation of the recommendations of 
this report, you go through the report and Senator Corker 
referred to 18 different Accountability Review Boards over a 
number of years. A recurring theme seems to be stovepipe 
decisionmaking. I mean, just earlier today, I have heard the 
bureaucratic verbiage of what got to the sixth floor, what got 
to the seventh floor.
    That doesn't mean anything to Senators or to people at home 
around the country that see a terrible situation and failed 
security effort. And truly, what is the State Department going 
to do to get beyond this, what goes to what floor to make sure 
that this doesn't happen again?
    Mr. Nides. Senator, as someone who has spent a lot of time 
in corporate America as well, there is plenty of stovepiping 
that goes on there, too, as you are well aware.
    We have got to learn from this. We have got to hold people 
accountable, which we are doing, and we have to change 
processes to make sure we are getting it right.
    We are going to relook at them from how we make our 
decisions as relates to the security decisions, how the Bureau 
reacts to that, who is making decisions. And we are going to 
have to embrace this and hold ourselves accountable. Secretary 
Clinton has been very clear to us, we are accountable for 
executing these recommendations, and we are going to have to 
learn from this quickly and get to the bottom of the answers 
that are set up as it relates to the specific tasks that are 
laid out for all of us to look at.
    Senator Barrasso. Thank you, Mr. Chairman.
    In the interest of time, I will cease questions there.
    The Chairman. Thank you, Senator Barrasso.
    Let me just say, as we conclude, I was just thinking, you 
know, this is a good process. Not a fun process, and it is not 
meant to be, but it is open accountability.
    I have been impressed by the directness and professionalism 
of the report that was delivered to us yesterday, but I am also 
impressed today by the just obvious combination of some pain at 
the losses that took place for which, obviously, everybody 
feels a sense of responsibility within the Department and the 
acknowledgment, difficult as it is, that mistakes were made and 
things have to be done differently.
    So I just want to salute both of you for coming in here, 
and I think good questions have been asked, legitimate ones, 
and this process will result in improvements. I am confident of 
that.
    So we thank you very, very much for coming in today. It has 
been, I think, very, very helpful, and we will look forward to 
working with you with the committee to make sure that the 
implementation is as effective as possible and to make sure 
that we do our part, that the Congress steps up here in ways 
that are important.
    I think Senator Corker's questions about the money, you 
know, we have got to analyze it and see where the improvements 
can be made. There is no question in my mind that we need 
additional resources in significant ways, and we are going to 
have to document that and do all the things necessary to make 
it clear.
    So thanks very, very much for coming in today. We wish you 
well and look forward to picking up whenever the next hearing 
will be with the Secretary.
    Thank you.
    Thanks. We stand adjourned.
    [Whereupon, at 9:46 a.m., the hearing was adjourned.]

              Additional Material Submitted for the Record


Letter From Secretary of State Hillary Rodham Clinton to Senators John 
                     F. Kerry and Richard G. Lugar
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre></body></html>
